No. 20IN THE

'upreme Court of the alutteb *tateEi
BOARD OF COUNTY COMMISSIONERS,
WELD COUNTY, COLORADO,

Petitioner,
v.
LAURIE EXBY-STOLLEY,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,750 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 24, 2021.

Cohn Casey Hoga
Wilson-Epes Prin ing Co., Inc.

